Department of Homeland Security
   Ofﬁce of Inspector General

            Federal Emergency Management 
 

         Agency’s Management Letter for FY 2010 
 

       DHS Consolidated Financial Statements Audit
 





OIG-11-75                                         April 2011
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528



                                                              Homeland
                                                              Security
                                           APR 13 2011

                                              Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the Federal Emergency Management Agency's Management Letter
for FY 2010 DHS Consolidated Financial Statements Audit. It contains observations
related to internal control that were not required to be reported in the financial statements
audit report. The independent public accounting firm KPMG LLP (KPMG) performed
the integrated audit ofDHS' FY 2010 financial statements and internal control over
financial reporting and prepared this management letter. KPMG is responsible for the
attached management letter dated March 14,2011, and the conclusions expressed in it.
We do not express opinions on DRS' financial statements or internal control or provide
conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.



                                               Anne L. Richards
                                               Assistant Inspector General for Audits
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




March 14, 2011


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security Federal Emergency Management Agency
Washington, DC


Ladies and Gentlemen:

We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS
or Department) as of September 30, 2010 and the related statement of custodial activity for the
year then ended (referred to herein as “financial statements”). We were also engaged to examine
the Department’s internal control over financial reporting of the balance sheet as of September 30,
2010, and the statement of custodial activity for the year then ended. We were not engaged to
audit the accompanying statements of net cost, changes in net position, and budgetary resources
for the year ended September 30, 2010 (referred to herein as other fiscal year (FY) 2010 financial
statements), or to examine internal control over financial reporting over the other FY 2010
financial statements.

Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the
scope of our work was not sufficient to enable us to express, and we did not express, an opinion
on the FY 2010 financial statements, and we were unable to perform procedures necessary to
form an opinion on DHS’ internal control over financial reporting of the balance sheet as of
September 30, 2010 and the related statement of custodial activity for the year then ended.

The Federal Emergency Management Agency (FEMA) is a component of DHS. We noted certain
matters involving internal control and other operational matters, related to FEMA that are
summarized in the Table of Financial Management Comments on the following pages, and
presented for your consideration in Section I of this letter.               These comments and
recommendations, all of which have been discussed with the appropriate members of
management, are intended to improve internal control or result in other operating efficiencies.
These comments are in addition to the significant deficiencies presented in our Independent
Auditors’ Report, dated November 12, 2010, included in the FY 2010 DHS Annual Financial
Report. A description of each internal control finding, not related to information technology, and
its disposition as either a significant deficiency or a financial management comment is provided
in Appendix A. Our findings related to information technology systems security have been
presented in a separate letter to the Office of Inspector General and the FEMA Chief Financial
Officer and Chief Information Officer.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
As described above, the scope of our work was not sufficient to express an opinion on the balance
sheet as of September 30, 2010 or the statement of custodial activity of DHS for the year then
ended, and we were not engaged to audit the statements of net cost, changes in net position, and
budgetary resources for the year ended September 30, 2010. Accordingly, other internal control
matters may have been identified and reported had we been able to perform all procedures
necessary to express an opinion on the FY 2010 financial statements and had we been engaged to
audit the other FY 2010 financial statements. We aim, however, to use our knowledge of DHS’
organization gained during our work to make comments and suggestions that we hope will be
useful to you.

FEMA’s written response to our comments and recommendations, presented in Appendix C, has
not been subjected to auditing procedures and, accordingly, we express no opinion on it.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS’ and FEMA’s management, the DHS
Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and
the Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,
                                Federal Emergency Management Agency
                               Table of Financial Management Comments
                                          September 30, 2010

              TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference   Subject                                                                                 Page(s)

FMC 10-01   Internal Control Deficiencies over Claims Paid at Selected Insurance Companies that       2
            Participate in FEMA’s National Flood Insurance Program (NFIP)
FMC 10-02   Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies that Participate      3-4
            in FEMA’s NFIP
FMC 10-03   Internal Control Deficiencies over Premiums Written at Selected Insurance Companies       4
            that Participate in FEMA’s NFIP
FMC 10-04   Deficiencies in the Budget Execution Report Preparation Process                            5
FMC 10-05   Deficiencies in the Development and Application of Policies Related to the Non­           5-6
            Grant, Non-Mission Assignment, and Non-System Generated Accounts Payable (A/P)
            Accrual
FMC 10-06   Control Deficiencies and Underlying Data Deficiencies Related to the Non-Grant,           6-8
            Non-Mission Assignment, and Non-System Generated A/P Accrual
FMC 10-07   Insufficient Office of the Chief Financial Officer Review of FEMA’s Legal Liability       8
            and Related Disclosure
FMC 10-08   Deficiencies in the Development of Mission Assignment (MA) Policies and                   9
            Procedures
FMC 10-09   Improvements Needed in Review and Recording of Year-end MA Accrual                        9
FMC 10-10   Lack of Certain Documentation Related to Compliance with the Improper Payments            10
            Information Act of 2002, as amended
FMC 10-11   Inability to Link Systems to Significant Grant Programs                                  10
FMC 10-12   Failure to Identify and Assess Accounting Policies/Practices Not in Accordance with     10-11
            Generally Accepted Accounting Principles (Non-GAAP)
FMC 10-13   Deficiency Identified Related to the Preparation and Review of the Retrospective          11
            Reserve Analysis
FMC 10-14   Lack of Supporting Documentation for Prompt Payment Sample Item                           11
FMC 10-15   Deficiency in the Methodology Used to Calculate the Non-Current Portion of the            12
            Insurance Liability Estimate
FMC 10-16   Failure to Close Assistance to Firefighter Grants Timely                                  12




                                             APPENDIX
Appendix    Subject                                                                                Page(s)

    A       Crosswalk – Financial Management Comments to Active Notices of Findings and
            Recommendation (NFRs)                                                                  13-14
    B       Status of Prior Year NFRs                                                              15-17
    C       Management Response                                                                    18-20




                                                     1
 

                                                                                               Section I
                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2010


FMC 10-01 – Internal Control Deficiencies over Claims Paid at Selected Insurance Companies that
Participate in Federal Emergency Management Agency’s (FEMA) National Flood Insurance
Program (NFIP) (NFR Nos. 10-01 and 10-01a)

       We selected 10 insurance companies and tested a sample of 300 claim payments across those
       companies covering October 1, 2009 to March 31, 2010. During this testing, we noted the
       following errors at the respective insurance companies:
       �	 For one sample item, we noted that evidence of the claim examiner’s review of the increased
           cost of compliance (ICC) report and claim file prior to claim payment was not available and
           included in the claim file.
       �	 For one sample item, we noted that the claim file was not appropriately reviewed prior to the
           claim payment to the policyholder based on the claim examiner’s payment authority limit.
       �	 For 19 sample items, we noted that based on the claim file, the loss reserve was not updated
           in the appropriate accounting month for subsequent preliminary/final reports received from
           the adjustor and/or payments made to the policyholder.
       �	 For one sample item, we noted that a loss reserve was not established upon the insurance
           company receiving the notice of loss.
       �	 For one sample item, we noted that the loss reserve was not closed in the month that the final
           payment was made.
       �	 For one sample item, we noted that the loss reserve was closed before the month of final
           payment.
       �	 For six sample items, we noted that the Loss Adjustment Expense (LAE) payment was
           incorrect based on supporting documentation in the claim file and the NFIP LAE Schedule.
       �	 For one sample item, we noted an underpayment of claim payments to the insured based on
           the adjuster’s final report and other supporting documentation in the claim file.

       We selected 10 insurance companies and tested a sample of 250 claim payments across those
       companies covering April 1, 2010 to June 30, 2010. During this testing, we noted the following
       errors at the respective insurance companies:
       �	 For one sample item, we noted an LAE overpayment based on supporting documentation in
           the claim file and the NFIP LAE Schedule.
       �	 For two sample items, we noted an overpayment/underpayment of claim payments to the
           insured based on the adjuster’s final report and other supporting documentation in the claim
           file.

      Recommendations:
      We recommend that FEMA:
      �	 Follow-up with each of the insurance companies to determine that appropriate corrective
         action has been implemented to address the exceptions noted.
      �	 Provide increased oversight to insurance companies participating in the NFIP to ensure claims
         files are being processed and reviewed in accordance with NFIP guidelines before approval
         and issuance of claim payments and to ensure the specific and consistent establishment and
         reporting of loss reserves and subsequent adjustments to the loss reserves.




                                                  2
 

                                                                                              Section I
                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2010


FMC 10-02 – Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies that
Participate in FEMA’s NFIP (NFR Nos. 10-02 and 10-02a)

      We selected 10 insurance companies and tested a sample of 587 loss reserves reported by these
      companies as of January 31, 2010. During this testing, we noted the following errors at the
      respective insurance companies:
      �	 For two sample items, the recorded date of loss was not accurate based on the supporting
          documentation in the claims files.
      �	 For three sample items, the loss reserve amount was incorrectly adjusted by the claims
          examiner based on the claims file supporting documentation.
      �	 For 17 sample items, the loss reserve was not adjusted for partial and/or advance payments
          made to the policyholder.
      �	 For three sample items, the insurance company attempted to correct an attribute related to the
          claims file in the claims system; however, this reset the loss reserve to the default system
          amount. Therefore, claim payments made prior to January 31, 2010 did not reduce the loss
          reserve balance as of that date.
      �	 For eight sample items, the loss reserve was not adjusted for subsequent adjuster reports
          and/or the final denial letter.
      �	 For one sample item, the preliminary report indicated a loss reserve for both building and
          contents; however, a loss reserve was not established for the contents portion by the claims
          examiner.
      �	 For three sample items, the loss reserve was not closed in a timely manner after full payment
          of the claim was made to the policyholder.
      �	 For four sample items, the loss reserve was not appropriately established/adjusted due to a
          claims examiner clerical error.
      �	 For one sample item, the loss reserve was converted from a previous insurance company
          vendor and did not reflect the activity identified in the claim file supporting documentation.
      �	 For 17 sample items, the claims file supporting documentation did not support the loss
          reserve recorded in the insurance company NFIP claims system.

      We selected 10 insurance companies and tested a sample of 612 loss reserves reported by these
      companies as of June 30, 2010. During this testing, we noted the following errors at the
      respective insurance companies:
      �	 For 58 sample items, we noted that the loss reserves were not accurately recorded in the
          general ledger based on documentation in the claim file (e.g., Final Report, Preliminary
          Report, and payments to date).
      �	 For one sample item, we noted that a claim was opened with an incorrect date of loss and
          remained open when a new claim was opened with the correct date of loss, resulting in a
          duplicate claim.
      �	 For one sample item, the Company did not provide the file for the claim.

      Recommendations:
      We recommend that FEMA
      �	 Follow-up with each of the insurance companies to determine that appropriate corrective
          action has been implemented to address the exceptions noted.




                                                  3
 

                                                                                              Section I
                             Federal Emergency Management Agency
                                Financial Management Comments
                                       September 30, 2010


       �	 Provide increased oversight to ensure specific and consistent documentation of the
          established loss reserve and subsequent adjustment to the loss reserve per claim at the
          insurance companies participating in the NFIP is maintained.

FMC 10-03 – Internal Control Deficiencies over Premiums Written at Selected Insurance
Companies that Participate in FEMA’s NFIP (NFR Nos. FEMA 10-05 and 10-05a)

      We selected 10 insurance companies and tested a sample of 284 written premium transactions
      across those companies covering October 1, 2009 to March 31, 2010. During this testing, we
      noted the following errors at the respective insurance companies:
      �	 For one sample item, we noted that the designated flood zone per the policy declaration page
          did not agree to the FEMA flood maps for the insured property address. Based on the
          incorrect flood zone used, we noted that the policy premium was calculated incorrectly. For
          another sample item, an incorrect property address was used.
      �	 For two sample items, we noted that the policy declaration page indicated that the premium
          should be calculated using pre-firm construction rates, but the policy premium was calculated
          using post-firm rates. Per the NFIP Manual, elevated pre-firm premiums may be calculated
          using post-firm rates if an elevation certificate is completed. However, we were unable to
          obtain the elevation certificates to support the use of post-firm rates for those policies.
      �	 For one sample item, we noted that the premium was calculated using a basement and above
          contents rate. However, the application indicated that contents should be calculated using
          lower floor only – above ground level rates.
      �	 For one sample item, we noted that the premium was calculated based on a preferred risk
          policy without basement or enclosure rates. However, the application indicated that the
          property had a finished basement below the building.

      We selected 10 insurance companies and tested a sample of 50 written premium transactions
      across those companies covering the period July 1, 2010 to August 31, 2010. During this testing,
      we identified the following error at one insurance company:
          �	 For one sample item, we noted that the designated flood zone per the policy declaration
              page did not agree to the FEMA flood maps for the insured property address. Based on
              the incorrect flood zone used, we noted that the policy premium was calculated
              incorrectly.

      Recommendations:
      We recommend that FEMA:
      �	 Follow-up with each of the insurance companies to determine that they have implemented
          the appropriate corrective action to address the exceptions identified.
      �	 Provide increased oversight to insurance companies participating in the NFIP to ensure they
          process and review underwriting files in accordance with NFIP guidelines.




                                                 4
 

                                                                                               Section I
                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2010



FMC 10-04 – Deficiencies in the Budget Execution Report Preparation Process (NFR No. FEMA
10-06)

       Based on our testwork performed over the Budget Execution Report as of March 31, 2010, we
       noted the process to prepare the Budget Execution Report is not properly designed. Specifically:
       �	 The Budget Execution Report “Spend Plan Amount” is not consistently reported by the
           Budget Planning and Analysis Division (BPAD) budget analysts. The reporting process is
           not standardized throughout the BPAD and, as such, the reconciliation is not programmed to
           accurately capture the original budget and subsequent allocations to each FEMA
           office/directorate. Further, BPAD management does not formally review the Budget
           Execution Report spend plan data for accuracy.
       �	 The “Spending to Date” balances do not agree to external financial reports, such as FEMA’s
           financial statements or Office Management and Budget (OMB) budget reports (e.g., the SF­
           132, Apportionment and Reapportionment Schedule, and the SF-133, Report on Budget
           Execution and Budgetary Resources). The Budget Execution Report “Spending to Date”
           activity is obtained from the Integrated Financial Management Information System (IFMIS)
           cost-posting module funds disposition report, which differs from data recorded in the general
           ledger because the report excludes journal vouchers (JVs). Therefore, the reconciliation data
           does not provide a true representation of FEMA’s budget and fiscal year spending for
           monitoring purposes.

       Recommendations:
       We recommend that FEMA:
       �	 Develop and implement standard operating procedures (SOP), including appropriate internal
          controls, over the preparation and review of the Budget Execution Report to ensure that a
          consistent process is established throughout the BPAD and proper review of the report is
          performed by management prior to report distribution.
       �	 Develop and implement enhancements to the data gathering process, including appropriate
          internal controls, to ensure that the Budget Execution Report “Spending to Date” data reflects
          FEMA’s fiscal year spending, including JVs, and agrees to external financial reports.

FMC 10-05 – Deficiencies in the Development and Application of Policies Related to the Non-Grant,
Non-Mission Assignment, and Non-System Generated Accounts Payable (A/P) Accrual (NFR No.
FEMA 10-07)

       Our review of the A/P accrual model methodology as of December 31, 2009 revealed the
       following conditions:
       �	 An A/P accrual was not generated for the following fund codes (FCs) and budget object
           codes (BOCs):
           �	 FCs 79, 87-89, 8C, 9B, 9C (all related to limited and no-year funds for the Chemical
               Stockpile Emergency Preparedness Program - CSEPP).
           �	 FCs H7 (related to State and Local Programs Fund - Public Safety Interoperable
               Communications – PSIC).
           �	 BOCs 2503 (Delegation of Authority – Disaster Unemployment Assistance) and 2504
               (Delegation of Authority – Crisis Counseling Assistance).




                                                  5

                                                                                              Section I
                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2010


         Due to the nature of the funds and BOCs, we noted a separate accrual approach from the A/P
         accrual model is required. Subsequent to our testwork as of December 31, 2009, FEMA
         drafted an Intergovernmental Accrual Process. However, the policy does not specifically
         identify the FCs and BOCs noted above.
      �	 The A/P accrual model used an improper United States Standard General Ledger (USSGL)
         account to limit the A/P accrual balance to the available undelivered order (UDO). UDO
         balances within the model are comprised of USSGL accounts 4801, 4802, 4871, and 4881.
         However, USSGL account 4802, Undelivered Orders – Obligations, Prepaid/Advance,
         represents UDOs that were previously paid; accordingly, USSGL account 4802 has no
         applicable A/P and should not be considered in the A/P accrual limit determination.
      �	 The A/P accrual methodology does not consider the impact of balances within USSGL
         account 1410, Advances and Prepayments, including whether any advances should be
         liquidated prior to recording an A/P balance.
      �	 The A/P model methodology tolerates an exceptionally high validation error rate: +/- 30% of
         the total model-calculated accrual.

      Recommendations:
      We recommend that FEMA:
      �	 Update the Intergovernmental Accrual Process SOP to provide clearer documentation of the
         accrual processes in place over the BOCs and FCs noted above.
      �	 Limit the UDO balance to the unpaid amount for A/P accrual limitation purposes by
         excluding USSGL account 4802, Undelivered Orders – Obligations, Prepaid/Advanced from
         the Automated Accounts Payable Model.
      �	 Perform a documented review of USSGL account 1410, Advances and Prepayments, to
         determine whether material non-governmental advances exist and require liquidation prior to
         booking the quarterly A/P accrual.
      �	 Re-evaluate the target error rate for the A/P accrual model validation to provide management
         with more reasonable assurance that the A/P accrual estimates recorded are not materially
         misstated.

FMC 10-06 – Control Deficiencies and Underlying Data Deficiencies Related to the Non-Grant,
Non-Mission Assignment, and Non-System Generated A/P Accrual (NFR No. FEMA 10-08)

       Based on our review of the December 31, 2009 A/P accrual model, we noted the following
       control deficiencies:
        �	 The A/P accrual model process lacks sufficiently documented review controls. The A/P
           accrual methodology provides for additional documentation in the event the model
           reconciliation or validation exceeds tolerable thresholds; however, the methodology does not
           require documented review controls throughout the model, as follows:
           �	 Reconciliation of the underlying invoice and UDO data to the general ledger - we noted
              no documentary evidence exists to support the model reconciliation review.
           �	 BOCs and A-11 codes (object classification codes defined in OMB Circular No. A-11,
              Section 83) included in the model - we noted no documentary evidence exists to support
              FEMA’s review of the BOCs and A-11 codes used in the model or a study of
              additional/new BOCs and FCs that may impact the model in FY 2010. As a result, our
              review of the December 31, 2009 A/P accrual model identified three BOCs improperly
              included in the model: BOC 2115, Rental/Lease of Vehicles from Government Motor


                                                  6

                                                                                            Section I
                         Federal Emergency Management Agency
                            Financial Management Comments
                                   September 30, 2010


          Pools; BOC 2310, Rental Payments to the General Services Administration (GSA); and
          BOC 2589, Interagency Agreements. BOC 2589 (A-11 code 25.3) was excluded from
          core IFMIS data but was not excluded from grants and training (G&T) data as of
          December 31, 2009. As a result, the model underlying data included one G&T invoice
          within BOC 2589. BOCs 2115, 2310, and 2589 relate to intragovernmental transactions;
          however, all A/P resulting from the A/P accrual model is allocated and accrued to non­
          governmental A/P.
      �	 Model parameters and thresholds, including the JV materiality threshold and the moving
          average length - per discussion with FEMA personnel, FEMA reviewed the model
          parameters and thresholds used in the December 31, 2009 A/P accrual model. However,
          we were unable to obtain documentation supporting FEMA’s review and assessment of
          the parameters in FY 2010.
      �	 Model calculations and outputs - we noted the JV reviewer reviewed the model JV list
          (model output) as supporting documentation for the A/P accrual JVs. However, we noted
          no documentary evidence exists to support an additional review of the A/P accrual model,
          including the model calculations and the model output.
     �	 Accrual estimate validation - the accrual estimate validation is not formally documented.
         Per the A/P accrual methodology and FEMA personnel, FEMA may draft a memorandum
         if the validation error rate exceeds the target error rate. However, the validation review is
         not documented if the validation error rate falls below the target error rate.
 �	 The model does not operate effectively to limit the A/P accrual allocation to the UDO balance
     for the applicable fund, budget fiscal year (BFY), and BOC combination within the model.
     Specifically, we noted the following exceptions:
     �	 In three instances, the model UDO data contained insufficient UDO balances within the
         fund, BFY, and BOC combinations, and the corresponding accrual allocations were not
         properly limited. The model populated estimated accruals for the corresponding fund,
         BFY, and BOC combinations that exceeded the model UDO balances.
     �	 In three instances, the model utilized UDO data within the incorrect A-11 codes for the
         accrual allocation limit. G&T funds use A-11 codes 21 and 31; core funds use A-11
         codes 21.0 and 31.0. The A/P accrual model was designed to capture UDO data within A­
         11 codes 21.0 and 31.0; as a result, G&T fund UDO balances within A-11 codes 21 and
         31 were not properly captured by the model allocation limit functionality. As such, per
         the A/P accrual model, no available UDO balance exists for the G&T entries. However,
         the model did not limit the JVs to the UDO balance per the JV Limit tab.
�	 Based on our review of 50 A/P accrual model underlying data invoices as of December 31,
    2009, we noted the following underlying data discrepancies:
    �	 Two travel vouchers were paid incorrectly based on supporting documentation.
    �	 One invoice was included in the incorrect period of performance quarter-end based on
        supporting documentation. Per the invoice, we noted the period of performance was
        June 23, 2009 to September 25, 2009. However, the invoice was included within the
        period of performance for the quarter-ended December 31, 2009.




                                              7
 

                                                                                                 Section I
                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2010



       Recommendations:
       We recommend that FEMA:
       �	 Revise the current A/P accrual methodology to require formal, documented review controls
          throughout the Automated Accounts Payable Model execution process, including annual
          review and reconciliation of BOCs/A-11 codes; annual review of model parameters and JV
          materiality thresholds; quarterly reconciliation of underlying data utilized within the model;
          and quarterly review of the model calculations, outputs, and estimate validation.
       �	 Perform a thorough review of the A/P accrual model, including A-11 codes, subsequent to
          any changes to ensure consistency in the model data and functionality.
       �	 Ensure accounting technicians undergo sufficient training to understand how to properly
          populate the vendor invoice data fields within IFMIS. In addition, reinforce existing
          procedures to ensure underlying data transactions undergo sufficient review to validate the
          accuracy of the transactions.

FMC 10-07 – Insufficient Office of the Chief Financial Officer (OCFO) Review of FEMA’s Legal
Liability and Related Disclosure (NFR No. FEMA 10-12)

       We noted that the FEMA OCFO did not perform an adequate review of its legal liability and
       related financial statement disclosures as of June 30, 2010. Specifically, the FEMA OCFO did
       not:
       �	 Evaluate the reasonableness of responses from the FEMA Office of Chief Counsel (OCC)
            attorneys related to the likelihood of an unfavorable outcome.
       �	 Review the reasonableness of the amounts of potential loss related to reasonably possible
            cases that are disclosed and probable cases that are accrued as contingent liabilities.
       �	 Perform look-back analyses on the estimate of the amount or range of potential losses. The
            OCFO did not compare what was actually awarded to the plaintiff to the estimated amount of
            potential losses to assess the accuracy of the estimation process.

       Subsequent to our notification to the FEMA OCFO of the condition above, the FEMA OCFO
       documented the FEMA OCC methodology for identifying reasonably possible and probable
       ranges.

       Recommendations:
       We recommend that FEMA OCFO implement a documented review process over the legal
       liability and related financial statement disclosures which encompass the following:
       �	 Assessment of the reasonableness of FEMA OCC attorneys’ responses as to likelihood of an
           unfavorable outcome.
       �	 Assessment of the reasonableness of the amount of potential loss related to reasonably
           possible cases that are disclosed and probable cases that are accrued as contingent liabilities.
       �	 Look-back analyses to determine the accuracy of the estimate of the amount or range of
           potential losses.




                                                    8
 

                                                                                             Section I
                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2010



FMC 10-08 – Deficiencies in the Development of Mission Assignment (MA) Policies and Procedures
(NFR No. FEMA 10-15)

       Under SOP Number 2600-007, Financial Reporting of Mission Assignments, FEMA requires
       MA-related UDO balances to be validated annually as of June 30th of each year. In the event an
       Other Federal Agency (OFA) is non-responsive to the validation request, FEMA will set a
       specific response deadline prior to closing the MA. However, the closeout process initiated by
       the validation contains deadlines that may not be completed by the fiscal year end,
       September 30th. The policy calls for UDOs to be reviewed but not validated at other times
       throughout the year.

       Recommendations:
       We recommend that FEMA:
       �	 Continue to refine its process for the annual MA UDO validation and work closely with
          OFAs to receive timely responses.
       �	 Continue to work closely with the regional offices to coordinate any necessary
          de-obligation/close out actions prior to fiscal year end.
       �	 Evaluate instituting a process in which a JV would be entered to effectively record the de-
          obligation of MA UDOs that have been identified as invalid/closed by an OFA, but not yet
          de-obligated by the regional offices prior to September 30.

FMC 10-09 – Improvements Needed in Review and Recording of Year-end MA Accrual (NFR No.
FEMA 10-17)

      FEMA attempted to perform a validation of the estimated September 30, 2009 MA A/P accrual to
      determine the accuracy and reliability of the estimate. However, during our review of the
      validation, we noted that the validation was not effective as FEMA compared all reimbursement
      requests received in the 1st quarter of FY 2010 to the accrual balance as of September 30, 2009.
      For comparison purposes, the reimbursement requests received in FY 2010 used to validate the
      accrual should only include the requests received for services and/or expenses incurred prior to
      October 1, 2009.

      In addition, FEMA did not review and analyze the accrual by agency prior to recording the
      accrual to ensure that validity and reasonableness of each accrual.

      Recommendations:
      We recommend that FEMA:
      �	 Develop and implement procedures to compare the MA A/P accrual estimates to the actual
         expenses incurred, communicate with OFAs on discrepancies noted to make estimation
         improvements in the future, and reassess the process to develop the estimate as necessary.
         The verification and validation should be documented and properly reviewed.
      �	 Thoroughly review MA A/P accrual supporting documentation for reasonableness prior to
         recording amounts reported by OFAs, and communicate timely with OFAs on any
         discrepancies noted to prevent an intragovernmental reconciliation problem.




                                                 9

                                                                                               Section I
                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2010



FMC 10-10 – Lack of Certain Documentation Related to Compliance with the Improper Payments
Information Act of 2002, as amended (IPIA) (NFR No. FEMA 10-20)

       We reviewed FEMA’s risk assessment approach and test plan for each of the eight programs that
       were determined to be of significant risk for improper payments. Based on our review, we
       determined that FEMA used multi-year sampling for the Homeland Security Grant Program and
       the Transit Security Grant Program given the large size of the programs. Because this approach
       was used, FEMA was unable to extrapolate the sample results over the entire population and
       could not provide results within the required 2.5 percent precision level. For this approach to be
       considered compliant with IPIA and OMB Circular No. A-123, FEMA must obtain approval from
       the OMB. FEMA did not obtain official written approval until after our audit request in late
       October.

       Recommendations:
       We recommend that FEMA obtain OMB written approval prior to utilizing a multi-year sampling
       approach for its IPIA testing.

FMC 10-11 – Inability to Link Systems to Significant Grant Programs (NFR No. FEMA 10-22)

       We requested that FEMA provide an analysis to demonstrate the amount of UDOs flowing
       through each grant system during fiscal year (FY) 2010. We asked that the analysis include a
       listing of which system FEMA was using to obligate and pay each specific grant program. FEMA
       provided a listing of systems; however, FEMA was not able to provide specific information to
       show what grants were being managed within each system and the volume of those grants.

       Recommendations:
       We recommend that FEMA:
       �	 Develop a crosswalk of agency grant programs to the appropriate systems used to process
          obligations and payments.
       �	 Develop and implement a method of determining the accounting string used to identify each
          individual grant program.
       �	 Develop and implement a monitoring control to ensure that the crosswalk and accounting
          string information are updated and kept current.

FMC 10-12 – Failure to Identify and Assess Accounting Policies/Practices Not in Accordance with
Generally Accepted Accounting Principles (Non-GAAP) (NFR No. FEMA 10-23)

       We inquired of FEMA OCFO personnel regarding the existence of any non-GAAP policies or
       procedures in FY 2010 and obtained a response stating that FEMA did not follow any non-GAAP
       policies or practices in FY 2010. However, based on testwork performed in FY 2010, we noted
       the following non-GAAP policies/practices:
        �	 FEMA’s A/P model accrued expenses based on the use of thresholds.
        �	 FEMA evaluated current and future litigation claims using a threshold of $3 million for
            individual cases and $6 million for aggregate cases. This policy was adopted by management
            and acts as an internal materiality threshold when evaluating litigation.




                                                  10

                                                                                                    Section I
                                  Federal Emergency Management Agency
                                     Financial Management Comments
                                            September 30, 2010


       Recommendation:
       We recommend that FEMA develop and implement procedures to evaluate new and existing
       policies for compliance with GAAP. FEMA should track those policies determined to not be in
       compliance with GAAP and periodically assess the impact of the non-GAAP policies on its
       financial information.

FMC 10-13 – Deficiency Identified Related to the Preparation and Review of the Retrospective
Reserve Analysis (NFR No. FEMA 10-25)

       We identified that the monthly Retrospective Reserve Analysis over the insurance liability
       estimate for July 31, 2010 prepared by the third-party service provider’s actuary contained
       discrepancies in the calculation of “total reserves retrospectively” and the reserve
       “redundancy/deficiency” amount for the month of July 2010. We noted the subsequent losses
       paid, current outstanding case reserve (O/S), and current incurred but not reported (IBNR) reserve
       for the Direct Servicing Agent were improperly excluded from the “total reserves
       retrospectively,” which resulted in the calculation of the “redundancy” being misstated by
       $45,919,624.

                                                   Current                          Financial
                    Subsequent      Current O/S    IBNR           Total Reserves    Statement      Redundancy       /
                    Loss Paid       Case Reserve    Reserve       Retrospectively   Reserves       (Deficiency)
       FEMA         $82,779,557      $90,716,321   $129,274,906   $ 256,851,160     $334,758,959   $77, 907,799 *

       KPMG         $82,779,557      $90,716,321   $129,274,906   $ 302,770,784     $334,758,959   $31,988,175
       Difference                                                                                  $45,919,624

       * The documented “redundancy/deficiency” in the Retrospective Reserve Analysis was
       $23,477,443 because of a formula error.           Based on the documented “total reserves
       retrospectively” and “financial statement reserves,” the amount that should have been shown as
       the “redundancy/deficiency” was $77,907,799.

      Recommendation:
      We recommend that FEMA enhance the Chief Actuary’s Retrospective Reserve Analysis review
      procedures to include a review of the accuracy of the amounts and calculations in the analysis.

FMC 10-14 – Lack of Supporting Documentation for Prompt Payment Sample Item (NFR No.
FEMA 10-28)

       During test work over compliance with the Prompt Payment Act as of September 30, 2010,
       FEMA was unable to provide documentation for 1 of 58 payments selected.

       Recommendation:
       We recommend that FEMA develop a monitoring control to ensure proper adherence to existing
       document retention policies and procedures for all payment activities.




                                                     11
 

                                                                                                Section I
                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2010


FMC 10-15 – Deficiency in the Methodology Used to Calculate the Non-Current Portion of the
Insurance Liability Estimate (NFR No. FEMA 10-29)

      We noted the following conditions relate to the calculation of the current and non-current portions
      of the insurance liability estimate:
      �	 In FY 2009, the OCFO calculated the current and non-current portions of the insurance
          liability estimate using a 33 percent and 67 percent split, respectively. In FY 2010, the third-
          party service provider’s actuary was asked to determine the percentage and calculated the
          current and non-current portions of the insurance liability as 85 percent and 15 percent,
          respectively. FEMA did not provide rationale for the large change in percentages used for the
          current and non-current portions of the insurance liability from FY 2009 to FY 2010, explain
          the methodology used last year, or provide rationale for the change in methodology from the
          prior year to the current year.
      �	 In FY 2010, the methodology used by FEMA to calculate the current and non-current
          portions of the insurance liability estimate, developed by the third-party service provider’s
          actuary, utilized the assumption that non-current liabilities represented estimated losses for
          accident months September 2009 and earlier. FEMA explained that, absent any major
          disasters, it would expect that a similar percentage of claims would have accident months
          older than one year at 9/30 each year. FEMA’s reasoning provided for the current and non­
          current portions of the insurance liability calculation is not consistent with Statement of
          Federal Financial Accounting Standards (SFFAS) No. 1 and is not supported by actual FY
          2010 claim payment data. The non-current portion of the liability should represent the
          insurance claims that will not be paid within the next year, not insurance claims with an
          accident month older than one year.

      Recommendation:
      We recommend that FEMA document, approve, and develop procedures to periodically reassess a
      methodology for calculating the current and non-current portions of the insurance liability
      estimate that is in compliance with the applicable accounting standards.

FMC 10-16 – Failure to Close Assistance to Firefighter Grants (AFG) Timely (NFR No. FEMA
10-30)

      During our testwork performed over AFG grants, we noted that no grant closeouts had been
      processed in the AFG System for the period October 1, 2009 to September 30, 2010. Per
      discussion with the Grant Programs Directorate (GPD), the implementation of the SF 425,
      Federal Financial Report, to comply with the Office of Management and Budget use of standard
      forms created a problem within the AFG System which prevented GPD from closing grants within
      the system. Because no manual closeout process exists, GPD has not been able to closeout any
      AFG grants since October 1, 2009.

      Recommendation:
      We recommend that FEMA develop and implement an alternate manual process to timely
      closeout AFG grants until the system is updated and to use if the system were to fail again in the
      future.




                                                  12
 

                                                                                                   Appendix A
                        Federal Emergency Management Agency
                  Crosswalk - Financial Management Comments to NFRs
                                   September 30, 2010


                                                                                      Disposition1
                                                                                      IAR            FMC
NFR No.                                Description                               MW    SD     NC      No.
          Internal Control Deficiencies over Claims Paid at Selected Insurance
 10-01    Companies that Participate in FEMA’s National Flood Insurance                              10-01
          Program (NFIP)
          Internal Control Deficiencies over Claims Paid at Selected Insurance
10-01a                                                                                               10-01
          Companies that Participate in FEMA’s NFIP
          Inaccuracy of Claims’ Loss Reserves at Selected Insurance
 10-02                                                                                               10-02
          Companies that Participate in FEMA’s NFIP
          Inaccuracy of Claims’ Loss Reserves at Selected Write Your Own
10-02a                                                                                               10-02
          (WYO) Insurance Companies that Participate in FEMA’s NFIP
 10-03    Lack of Formal Policies and Procedures in Various Areas                       G
          Non-Compliance with 5 CFR Part 2638 and 5 CFR Part 2638 Related
 10-04                                                                                  G
          to Ethical Requirements
          Internal Control Deficiencies Identified Over Premiums Written at
 10-05                                                                                               10-03
          Selected Insurance Companies that Participate in FEMA’s NFIP
          Internal Control Deficiencies Identified Over Premiums Written at
10-05a                                                                                               10-03
          Selected Insurance Companies that Participate in FEMA’s NFIP
 10-06    Deficiencies in the Budget Execution Report Preparation Process                            10-04
          Deficiencies in Development and Application of Policies Related to
 10-07    the Non-Grant, Non-Mission Assignment, Non-System-Generated                                10-05
          Accounts Payable (A/P) Accrual
          Control Deficiencies and Underlying Data Deficiencies Related to the
 10-08    Non-Grant, Non-Mission Assignment, Non-System-Generated A/P                                10-06
          Accrual
          Deficiencies in the Preparation and Review of the Government
 10-09    Accountability Office (GAO) Financial Audit Manual (FAM) 2010 –        A
          Checklist for Federal Accounting
          Inherited Problems in Legacy Grants & Training’s (G&T’s)
          Integrated Financial Management Information System (IFMIS) and
 10-10                                                                           A
          Other Issues Noted in the Treasury Information Executive Repository
          (TIER) to IFMIS Reconciliation as of June 30, 2010
          Control Deficiencies Noted in the Financial Reporting Environment
 10-11                                                                           A
          as of 3/31/10
          Insufficient Office of the Chief Financial Officer (OCFO) Review of
 10-12                                                                                               10-07
          FEMA’s Legal Liability and Related Disclosure
          Deficiencies Identified in the IFMIS Chart of Accounts and
 10-13                                                                                         J
          Transaction Codes
 10-14    Ineffective Controls Over Processing Obligations                       F
          Deficiencies in Development of Mission Assignment (MA) Policies
 10-15                                                                                               10-08
          and Procedures
 10-16    Ineffective Controls Over Processing and Monitoring MA                 F
          Improvements Needed in Review and Recording of Year-End MA
 10-17                                                                                               10-09
          Accrual
 10-18    Financial Monitoring of Grants by the Former Office of G&T             E
 10-19    Ineffective Controls Over Grants Management                            E
          Lack of Certain Documentation Related to Compliance with the
 10-20                                                                                               10-10
          Improper Payments Information Act of 2002, as amended
          Budgetary Accounting Issues Identified Journal Voucher (JV)
 10-21                                                                           F
          Testwork through June 30, 2010




                                                  13
 

                                                                                                                 Appendix A
                                   Federal Emergency Management Agency
                             Crosswalk - Financial Management Comments to NFRs
                                              September 30, 2010


                                                                                                    Disposition1
                                                                                                    IAR            FMC
       NFR No.                                    Description                                MW      SD     NC      No.
                     Budgetary Accounting Issues Identified JV Testwork from July 1,
        10-21a                                                                                F
                     2010 through September 30, 2010
         10-22       Inability to Link Systems to Significant Grant Programs                                       10-11
                     Failure to Identify and Assess Accounting Policies / Practices Not In
         10-23       Accordance with Generally Accepted Accounting Principles (Non-                                10-12
                     GAAP)
                     Improvements Needed in Management’s Review of Grant Data and
         10-24                                                                                A
                     Automated Reconciliations in Grant Accrual Models
                     Deficiency Identified Related to the Preparation and Review of the
         10-25                                                                                                     10-13
                     Retrospective Reserve Analysis
         10-26       Issues Deficiencies Identified in JV Testwork through June 30, 2010      A
                     Issues Deficiencies Identified in JV Testwork from July 1, 2010
        10-26a                                                                                A
                     through September 30, 2010
                     Monitoring of Audit Findings in Accordance with Office of
         10-27       Management and Budget (OMB) Circular No. A-133 and No. A-50,             E              K
                     and Related Compliance Matters
         10-28       Lack of Supporting Documentation for Prompt Payment Sample Item                               10-14
                     Deficiency in the Methodology Used to Calculate the Non-Current
         10-29                                                                                                     10-15
                     Portion of the Insurance Liability Estimate
         10-30       Failure to Close Assistance to Firefighter Grants Timely                                      10-16
         10-31       Deficiencies over NFIP TIER JV Adjustments                               A
                     Untimely De-Obligation of UDOs and Accounting for Public
         10-32                                                                                F
                     Assistance Grant Arbitration Cases in FY 2010


1
 Disposition Legend:
IAR	 	     Independent Auditors’ Report dated November 12, 2010
FMC	 	 Financial Management Comment
MW	 	      Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Noncompliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	 	     Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A	 	      Financial Management and Reporting
B	 	      Information Technology Controls and System Functionality
C	 	      Fund Balance with Treasury
D	 	      Property, Plant, and Equipment
E	 	      Actuarial and Other Liabilities
F	 	      Budgetary Accounting
G	 	      Other Entity-Level Controls
H	 	      Custodial Revenue and Drawback
I	 	      Federal Managers’ Financial Integrity Act of 1982 (FMFIA), and Laws and Regulations Supporting OMB Circular
          No. A-50, Audit Followup, as revised
J	 	      Federal Financial Management Improvement Act of 1996 (FFMIA)
K	 	      Single Audit Act Amendments of 1996
L	 	      Chief Financial Officers Act of 1990 (CFO Act)
M	 	      Antideficiency Act, as amended (ADA)
N	 	      Government Performance and Results Act of 1993 (GPRA)




                                                              14

                                                                                              Appendix B
                         Federal Emergency Management Agency
                                Status of Prior Year NFRs
                                   September 30, 2010


                                                                                   Disposition1
                                                                                           Repeat
                                     Description                            Closed2
NFR No.                                                                               (2010 NFR No.)
 09-01    Number not used                                                         Not applicable
 09-02    Financial Monitoring of Grants by the Former Office of G&T                    FEMA 10-18
 09-03    Number not used                                                         Not applicable
          Non-Grant Related Unliquidated Obligations within the Former
 09-04                                                                                  FEMA 10-32
          G&T Not Adequately Supported and De-obligated Timely
 09-05    Number not used                                                         Not applicable
 09-06    Number not used                                                         Not applicable
 09-07    Lack of Current Antideficiency Act Policies and Procedures          X
 09-08    Ineffective Controls over Processing MA Payments                              FEMA 10-16
          Untimely De-obligation of MAs and Delegations of Authority, and              Combined into
 09-09
          Control Deficiencies Related to Quarterly Review of MAs                       FEMA 10-32
 09-10    Number not used                                                         Not applicable
 09-11    Number not used                                                         Not applicable
          Lack of Supporting Documentation for the Reporting of Internal
 09-12                                                                        X
          Use Software and Internal Use Software In Development
 09-13    Non-compliance with Ethics Requirements                                       FEMA 10-04
 09-14    Number not used                                                         Not applicable
 09-15    Number not used                                                         Not applicable
 09-16    Number not used                                                         Not applicable
          Unavailability of Supporting Documentation for Certain Entity
 09-17                                                                        X
          Level Controls
 09-18    Number not used                                                         Not applicable
 09-19    Lack of Formal Policies and Procedures in Various Areas                       FEMA 10-03
          Monitoring of Audit Findings in Accordance with OMB Circular
 09-20                                                                                  FEMA 10-27
          Nos. A-133 and A-50, and Related Compliance Matters
 09-21    Number not used                                                         Not applicable
 09-22    Number not used                                                         Not applicable
 09-23    Number not used                                                         Not applicable
 09-24    Number not used                                                         Not applicable
 09-25    Number not used                                                         Not applicable
 09-26    Number not used                                                         Not applicable
 09-27    Number not used                                                         Not applicable
          Temporary Adjustments of Fund Balance with Treasury
 09-28                                                                        X
          Reconciling Differences
 09-29    Number not used                                                         Not applicable
 09-30    Number not used                                                         Not applicable
 09-31    Number not used                                                         Not applicable
          Inherited Problems in Legacy Grants & Training IFMIS and Other
 09-32                                                                                  FEMA 10-10
          Issues Noted In the IFMIS to TIER Reconciliations
 09-33    Number not used                                                         Not applicable
 09-34    Number not used                                                         Not applicable
 09-35    Number not used                                                         Not applicable




                                                15
 

                                                                                                          Appendix B
                                   Federal Emergency Management Agency
                                          Status of Prior Year NFRs
                                             September 30, 2010


                                                                                               Disposition1
                                                                                                       Repeat
                                              Description                               Closed2
       NFR No.                                                                                    (2010 NFR No.)
                    Internal Control Deficiencies over Claims Paid at Selected                      FEMA 10-01,
         09-36
                    Insurance Companies that Participate in FEMA’s NFIP                                10-01a
                    Inaccuracy of Claims’ Loss Reserves at Selected WYO Insurance                   FEMA 10-02,
         09-37
                    Companies that Participate in FEMA’s NFIP                                          10-02a
         09-38      Number not used                                                           Not applicable
                    Insufficient FEMA Oversight of the NFIP Service Provider’s
                    Methodology Used to Calculate Estimates Reported in the FEMA          X
         09-39
                    Financial Statements
         09-40      Number not used                                                           Not applicable
                    Deficiencies in the Submit for Rate Program and Claims
         09-41                                                                            X
                    Reinspection Program
                    Lack of Consistent Policies and Procedures Over and Timely
         09-42      Documentation of the Initial Response Resources Inventory (IRR)       X
                    Reconciliation Process
                    Lack of Consistent Policies and Procedures Involving the Monthly
         09-43                                                                            X
                    IRR Inventory Rollforward Process
                    Insufficient Resources in the Risk Management & Compliance
         09-44                                                                            X
                    Branch
                    Monitoring and Communication of Significant Financial-Related
         09-45                                                                            X
                    Matters in the NFIP
         09-46      Number not used                                                           Not applicable
         09-47      Number not used                                                           Not applicable
         09-48      Number not used                                                           Not applicable
         09-49      Number not used                                                           Not applicable
                    Improvements Needed in Review and Recording of Year-end MA
         09-50                                                                                      FEMA 10-17
                    Accrual
                    Internal Control Deficiencies over the NFIP Restricted Bank
         09-51      Account Reconciliations at Selected Insurance Companies that          X
                    Participate in FEMA’s NFIP
                    Issues identified in JV Testwork Relating to DHS TIER File                     FEMA 10-26,
         09-52
                    Adjustments and IFMIS Abnormal Balances                                          10-26a
         09-53      Internal Control Deficiencies over NFIP TIER JV Adjustments                    FEMA 10-31
                    Deficiencies in Development and Application of Policy and Lack of
         09-54      Controls Related to the Non-Grant, Non-System-Generated A/P                     FEMA 10-07
                    Accrual
         09-55      Deficiencies in Development and Application of MA Policies                      FEMA 10-15
         09-56      Ineffective Review Controls over the Accounts Receivable Process      X
                    Lack of Supporting Documentation for Disaster Fund (Fund 6)                    Combined into
         09-57
                    UDOs                                                                           FEMA 10-32
                                                                                                   Combined into
         09-58      Lack of Supporting Documentation for Non-Fund 6 UDOs
                                                                                                   FEMA 10-32
                    Improvements Needed in Management’s Review of Grant Data and
         09-59                                                                                      FEMA 10-24
                    Automated Reconciliations in Grant Accrual Models
                    Improper Accounting for Budgetary Entries in Treasury
         09-60                                                                            X
                    Appropriation Fund Symbol (TAFS) 709/00561

1
  KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and
for the year ended September 30, 2010, and was not engaged to perform an audit over the statement of net cost,
statement of changes in net position, and statement of budgetary resources for the year ended September 30, 2010.
In addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies



                                                          16
                                                                                                  Appendix B
                                 Federal Emergency Management Agency
                                        Status of Prior Year NFRs
                                           September 30, 2010


reported in KPMG’s Independent Auditors’ Report dated November 13, 2009.
2
 NFRs were closed either through remediation of the findings or that we were not engaged to follow up on active
NFRs that did not support significant deficiencies reported in KPMG’s Independent Auditors’ Report dated
November 13, 2009.




                                                      17
 

                                                                                                      Appendix C
                            Federal Emergency Management Agency
                                 Management Response to the
 

                                    Management Letter
 




                                                                        lJ. '. u..!UMoL< -I n-io.M s.-riIY
                                                                        'W~rx;mll




                                II1II 11 2llt1                                    FEMA
MEMORANOUM FOR,               Anne L. Richards
                              Assistant Inspector   GenemJ for Audits

FROM:
                              ~~~~~~oifiJM~emenl
                                           ~ v0' "
                              Federal Emergency                  Agency

SClliECT:                     Response to Draft Repon ··Fetkra/ Emergency Manag~menl Ag~ncy
                              Managemenr utt~rfiN FY 20/0 DHS Consolidated Ffrrancial
                              SU:llelPKnI Audit"

This memon:ndl:::1 provides a response to the Federal Emergency Management Agency's
m:ommmdatiOM cited in FY 1010 DHS COIlJolidated Financial Statemenl Audit I am responding
to the draft I'eJXln cited above.

FMC 10·01 -lllttl'1lal CHtrol Ddkieac::in onl' Claims Paid at Selected wanutee CompaDia
tllat Panicipate In Fedenl Em~c:y Mu.8le.tat Aaeacy's (FEMA) Natioa.al Flood
InsuJ"UKe Progr. .t (NflP) (NEll Nos. lUI otl}U}tI)

~ t concurs with the audit report recommendation. NFIP Management initiated follow-up
with the WYO companies on the excc:ptiOllS noted. The NFlP will conunue to review '¥.'YO
company claims handling as part of the ongoing claims operation reviev.'$lo cnsure compliance with
1\'FlP guidelines and consistent establishment and reponing of loss rese"'es and subsequtnt
adjustments. Manaaement does not believe that claims loss reserves ~ mlllerial to !he 10"
reserving process.

FMC 10-01- Inaccuracy of Claims' Lo.. Reserves at SelKttd las.ranee Comp~ that
P....-tttipate ill FEMA', r;np (NFR Nos. JO-Q2 tuullO-Ola)

Management concurs with the audit repon recommendation. NFlP Management has initiated
follo",·up with the WYO compames on the exceptions DOted and will continue 10 review \\'YO
company claims loss reserving as part oftbe onaoina claims opeBtion reviews to ensure consistent
establishment and reportina ofloss reserves and subsequent adjustments Management does not
believe that claims loss reserves are mmcriaIlO the loss reserving process..

FMC 10-03 - [unrwa! Co.trol DnJcinlcies over Prcmi.., Wrtnn .t Sd«ted [lUuruee
Compuies that Participate ill FEMA'I ""FlP (NFIt Nos. FEMA JfJ-(JS uti JU5aj

Management concun: with the audit report recommendation. NFIP Manaaemen1 has initiated
follow.up with the WYO companies on the exceptions noted and ","ill continue to rt.... iev. WYO
company wtderwriling proccsse.s as part oftbt: ongoioj, underwriting operalion reviews.




                                                    18
 

                                                                                                    Appendix C
                           Federal Emergency Management Agency
                                 Management Response to the
 

                                    Management Letter
 





FMC 10-G4 - De:6ciudes i.D. the      Budzd    EuntioD Rt'pon Prepanttoa Proctfl (NFR No.
FEMA 1f..tJd)

Management concurs with the audit report recommendation. OCFO bas a dedicated rr:rncxiillion
dfort lJZlder,1,..y to mnoiiee this issue.

FMC 10-45 - Ddidr:ada i.D. tIte Devdop..eat ud ApplitatioD or Pelida Related 10 the NOD-
Graot, ~.a-Mialioll Auipmqt, aod Noa-SyakDI Gcatrated ACCOwaB rayable (AlP) Atxnlal
(HF. No.. FEMA 1(7)

Management concurs with the: audit repon m;:onuncndation. OCFO has a dedicated remedialion
effort UDdaway to rc:mecbzte thU issue.

FMC 10-06 - Coafrol Ddicimc:ies _d UaderlyiDc Datil Ddicieaclts Related 10 tbe Noo-Grut.,
NOD-Mill ton Aaipllleat, and N'oa-System Gneraled AttOUDlJ Payable: Attrual (lfFR No.
FEAtA 1fUJ')

Manaaement concUI$ with the audit report recommendation_ OCFO has • dediated remediation
clfon tmderway to remedia1e this issue.

FMC I"" - laJ.trkieat Office of tIIa Cilief FiuDdaJ Oftker (OCfO) Rniew of FEMA's
Lep.I LiJlbilily ADd R,Nted Disdosaft (NFR No.. FEMA. 1~11)

Management conc~ with the audit report n:corrunendation OCFO is workin~ towards remediation
of this issue.

FMC 10-08 - Deficieacla in the De,·eIop..eal of Miaioo AlligDmut (MA) Polides aad
P'ro£edurn (NER No. FEMA 10-1 S)

Management eoncurs with the audit report RCommendation. OCFO is working towards remediation
of lhis issue.

FMC 10-09 - lmpro"emeDts Needed In Review aad Recordia& of Year-ead Mission
AuipmcDI Accrual (HFR No. FEMA J(J-17)

:\{anagemem concurs with the audit report recommendation. OCFO is worlcing towards remediation
of Ihi:s issue.

fMC It-l0 - u.ck of Ccrtaia DocumentlldoD Related to Compliaaai with tile Improper
PaymClltsl.formatioD Act of2002, u ame.ded (lP1A) (NFll No. FEMA 10-20J

ManagetDQ1t concun with lbc: aud..il repon recommeodation. OCFO is workini towards remediation
of this issue.

FMC 10-11 - lability to Li.a.k Sy.taaI to Sipifieaol Graul Proanas (NF. No. FEMA 10-11)
Manageme:nl conc:l.IJ"S whh the audit report recommendation. OCFO is W.:l!"kin& towards rernediaIl()n
of this issue.



Page 2 of]




                                                  19
 

                                                                                                        Appendix C
                            Federal Emergency Management Agency
                                 Management Response to the
 

                                    Management Letter
 





FMC 1()..12 - Failure to IdstUy ud AIMII AttOutiDl PoliriellPradica l'\ol ia AcconhDc:c
with GsuaJly Accepted AceoutiDl Principles (l'\o• ...cAAP) (HFR No. FEMA J~l1)

Man.agemc:rrt concun with the alldn report rcc:ommc:odation. OCFO is working tov.'atds remediation
oftbis issue

FMC 10-13- Ddidmcy Jd~1ified Relalnllo lbe PnparattoD and R.e\iew ofille Retrolpective
Reserve ADalysu (NFR No. FEMA 10-25)

Managemenl conCl1n with the audit report ~mmendation. The Chief Ac.:tuary has enhanced the
retruspective reserved analysis review process to include a review of the ac:uracy of the amounts
and the calculations in the analysis.

FMC 11-14 - Lau. or S.pporting D«. .eotatiOD for Prompt PaymeDI Sample Item (/!t'FR No.
UMA 10-26)

Mar..agement concurs with the audit report m:ommeDdation. OCFO is worhfl& towards remediation
ofmis i5Sl.lC.

FMC l~lS - Ddic:ieoq io tke MGodoIoc:r Used 10 Cakma~ the No..c.rTftll Portioa of the
luannce Liability f.atilllate: (NFR .'\'0. FEMA 18-29)

Managcrnm1 conCW'l with the audit report reeommeodation. FEMA's OCFO and the Mitigation
Directma1e are dc:vclopine procedW'eS to reassess periodically 11. metbodD:06Y for calculating lM
curTe!lt and non-cum:nt portions ofthe insurmec liability estimate that complies \\ith \be applicable
8Ca)llIItin,g staDdards.


FMC 10-16- FailW't to CleM Assistance to Firefilltle£ Grants (AFG) Timely (NFR No. FEMA
IO-JO)

Management concurs with the audit report rttOmmendauoo. OCFO is working towards remediation
of this issue.

Should you have My questions or concerns, pleMe contact Kathy Hill. Director, Risk Management
and Compliance at (202) 64&7057 or by e.maiJ at ..........           _




Pq,e]orJ




                                                   20
 

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
